Ti
COCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8g a l B rie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

STAPLES, INC., AND STAPLES THE
OFFICE SUPERSTORE, INC., PETITIONERS

v.
MARYLAND COMPTROLLER OF THE TREASURY
AFFIDAVIT OF SERVICE
L Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of July, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled

case. All parties required to be served have been served either by Priority Mail or by third-party commercial carrier for
delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

CRAIG B. FIELDS

NICOLE L. JOHNSON
MORRISON & FOERSTER LLP
250 West 55th St.

New York, NY 10019

JOSEPH R. PALMORE

Counsel of Record

MORRISON & FOERSTER LLP
2000 Pennsylvania Ave., N.W.
Washington, D.C. 20006

(202) 887-6940

JAMES R. SIGEL JPalmore@mofo.com
MORRISON & FOERSTER LLP
425 Market St. Counsel for Petitioners

San Francisco, CA 94105

Subscribed and sworn to before me this 22nd day of July, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ,
State of Nebraska . Le ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 38231

 

 
Brian E. Frosh

Attorney General of Maryland
303 Goldstein Treasury Building
80 Calvert Street

P.O. Box 466

Annapolis, MD 21404-0466
410-260-7801
oag@oag.state.md.us

Brian L. Oliner

Michael J. Salem

Schonette J. Walker

Assistant Attorney General

Office of the Maryland Attorney General
Louis L. Goldstein Treasury Building
80 Calvert Street, Room 303

Annapolis, MD 21404-0466
410-260-7808

boliner@comp.state.md.us
